DECEMBER 5, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     NASA FACES SIGNIFICANT CHALLENGES IN
   TRANSITIONING TO A CONTINUOUS MONITORING
               APPROACH FOR ITS
       INFORMATION TECHNOLOGY SYSTEMS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-006 (ASSIGNMENT NO. A-11-003-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ASCS            Agency Security Configuration Standards
AVAR            Agency Vulnerability Assessment and Remediation
C&A             Certification and Accreditation
CAT             Configuration Assessment Tool
CIO             Chief Information Officer
CIS             Center for Internet Security
CISO            Chief Information Security Officer
FDCC            Federal Desktop Core Configuration
FIPS            Federal Information Processing Standards
FISMA           Federal Information Security Management Act
FY              Fiscal Year
IT              Information Technology
ITSEC-EDW       Information Technology Security – Enterprise Data Warehouse
NIST            National Institute of Standards and Technology
NITR            NASA Information Technology Requirement
NPR             NASA Procedural Requirements
OCIO            Office of the Chief Information Officer
OMB             Office of Management and Budget
SP              Special Publication
US-CERT         United States Computer Emergency Readiness Team
USGCB           United States Government Configuration Baseline


                                                                  REPORT NO. IG-12-006
DECEMBER 5, 2011




                                                                                       OVERVIEW

      NASA FACES SIGNIFICANT CHALLENGES IN TRANSITIONING
        TO A CONTINUOUS MONITORING APPROACH FOR ITS
              INFORMATION TECHNOLOGY SYSTEMS

                                                                                         The Issue

  Cyber-based threats to NASA’s information technology (IT) systems come from a variety
  of sources, including foreign nations, criminals, terrorists, and disgruntled employees.
  Combating these threats requires a dynamic security process that effectively and timely
  identifies and mitigates vulnerabilities in NASA’s IT system components.

  The Federal Information Security Management Act of 2002 (FISMA) requires NASA
  and other Federal agencies to annually report the security posture of their information
  systems. 1 Prior to May 2010, NASA assessed the security posture of its systems using a
  “snapshot” certification and accreditation (C&A) process in which the Agency assessed
  security on a periodic schedule and at a fixed point in time. Under this approach, NASA
  required system owners to reauthorize their systems on a 3-year cycle and placed little
  emphasis on the use of automation to continuously monitor critical IT controls.

  In April 2010, the Office of Management and Budget (OMB) issued new guidance on
  FISMA reporting requirements that emphasized continuous monitoring to provide
  ongoing, near real-time risk management and operational security for IT systems. In
  May 2010, NASA’s Office of the Chief Information Officer (OCIO) suspended the C&A
  process it had been using for reviewing operational IT systems in favor of what it called
  “a more streamlined system security authorization process with a focus on continuous
  monitoring, automated tools, and significant paperwork reduction.” 2 In a May 2010
  interview with Federal Computer Week, NASA’s Deputy Chief Information
  Officer (CIO) for Information Technology Security said that C&A “will still be done, but
  the way we do it is going to change significantly and the frequency of it will change.
  Instead of every 3 years . . . you’re always going to be looking at those controls and
  adjusting them for changes.” 3



  1
      See Appendix B for the glossary of terms used in this report.
  2
      NASA OCIO memorandum, “Suspension of Certification and Accreditation Activity,” May 18, 2010
      (see Appendix C).
  3
      Ben Bain, “A NASA deputy CIO explains NASA’s new policy for certifying its systems as secure,”
      Federal Computer News, May 24, 2010.



REPORT NO. IG-12-006
                                                                                                     OVERVIEW



     As part of the transition to a continuous monitoring program, NASA has undertaken the
     following initiatives:

           •   Developed the IT Security – Enterprise Data Warehouse (ITSEC-EDW), an
               inventory of NASA IT components and related security information.

           •   Formed the Agency Vulnerability Assessment and Remediation (AVAR) team,
               which is responsible for the Agency’s vulnerability management project and for
               Foundstone Enterprise, the Agency’s automated network vulnerability scanning
               tool, as well as for communication between Foundstone Enterprise and
               ITSEC-EDW. 4

           •   Instituted the Agency Security Configuration Standards (ASCS) project to
               provide assessments, recommendations, processes, and procedures to assist
               NASA in meeting system security configuration requirements.

     This audit reviewed NASA practices to determine whether the Agency was establishing a
     solid foundation to implement a continuous monitoring program. Specifically, we
     focused on NASA’s progress in three key elements: record of IT components,
     configuration management, and vulnerability monitoring.

     Results

     Although NASA has made progress in transitioning to a continuous monitoring program,
     the Agency needs to take significant steps to ensure the successful implementation of its
     program. Specifically, NASA needs to (1) create and maintain a complete, up-to-date
     record of IT components connected to Agency networks; (2) define the security
     configuration baselines that are required for its system components and develop an
     effective means of assessing compliance with those baselines; and (3) use best practices
     for vulnerability management on all its IT systems. Failure to make improvements in
     each of these areas will limit NASA’s ability to accurately assess the security of its IT
     systems.

     Agency Continuous Monitoring and Reporting System Data Are Incomplete. We
     found that to ensure successful implementation of continuous monitoring, NASA needs
     to significantly improve its procedures for recording IT components in ITSEC-EDW, the
     database it uses to track and report its security posture. NASA’s goal is to monitor
     100 percent of its systems and connected components. The first step toward that goal is
     compiling a complete and up-to-date inventory that provides IT security personnel with a
     real-time awareness of all components connected to their systems that need protection.


     4
         Foundstone Enterprise is the commercial off-the-shelf enterprise software solution used when scanning
         NASA’s networks and systems for vulnerabilities. (McAfee, the manufacturer of Foundstone Enterprise,
         recently changed the name of the product to Vulnerability Manager.)



ii                                                                                     REPORT NO. IG-12-006
OVERVIEW



  NASA established ITSEC-EDW in response to a recommendation we made in a
  September 2010 audit. 5 As mentioned above, ITSEC-EDW is intended to serve as an
  automated data warehouse providing an inventory of NASA IT components and related
  security information. However, we found that the majority of components we reviewed
  were not included in ITSEC-EDW and that the information concerning the remaining
  components in the sample was incomplete. Specifically, we judgmentally selected a
  sample of 289 components connected to NASA systems and found that 175 of these
  components (61 percent) were not included in the database and that patch agent or
  vulnerability data was missing for 93 others (32 percent). Moreover, ITSEC-EDW
  included both patch agent and vulnerability data for only 21 of the 289 component
  (7 percent) we tested. Failure to maintain a complete and up-to-date inventory of
  components in ITSEC-EDW will significantly diminish the effectiveness of NASA’s
  continuous monitoring program.

  Security Configuration Baselines Are Not Available and Continuously Monitored on
  Many IT Components. NASA’s IT components require secure configurations to protect
  them from internal and external threats. A security configuration baseline is a collection
  of security settings for components such as file servers, web servers, application servers,
  and clients that provides a compliance benchmark for how an organization’s computer
  systems are to be configured. Where there are no generally accepted baseline settings for
  a particular system, Agencies must either adopt other measures, such as Center for
  Internet Security (CIS) benchmarks, or develop their own security configuration
  baselines.

  For its Windows desktop operating systems, Microsoft Windows XP and Vista, NASA
  uses Federal Desktop Core Configuration (FDCC) baseline settings. NASA has
  automated means for tracking compliance with FDCC settings and reports compliance
  with these settings to OMB. For components such as Unix/Linux and Windows server
  components that have no FDCC baselines, NASA has adopted CIS benchmarks. NASA
  does not have automated means for tracking compliance with CIS benchmarks. Our
  review focused on NASA systems that use CIS benchmarks.

  We found that the implementation of CIS benchmarks varies widely from one system to
  the next across the Agency and that no processes are in place to measure and monitor
  benchmark compliance. Without an effective monitoring and measurement capability,
  system owners and NASA management have limited means for determining whether
  systems are compliant or are meeting the IT security goals of the Agency.

  Inconsistent Vulnerability Monitoring Is Not Effective in Identifying All Known,
  High-Impact Vulnerabilities. Vulnerability scanning is an important aspect of
  continuous monitoring that can help identify all known, high-impact vulnerabilities
  within a system’s components. Vulnerability scans can be performed as credentialed or
  non-credentialed. A credentialed scan uses administrator rights on the target host, while
  5
      NASA OIG, “Audit of NASA’s Efforts to Continuously Monitor Critical Information Technology
      Security Controls” (IG-10-019, September 14, 2010).



REPORT NO. IG-12-006                                                                               iii
                                                                                                         OVERVIEW



     a non-credentialed scan does not. Administrator rights are permissions granted to users
     allowing them to view installed software and to make changes to computer system
     configurations. 6

     Our review of 13 NASA systems revealed inconsistent vulnerability monitoring
     practices. We identified unmonitored systems with multiple high-impact vulnerabilities,
     monitored systems that still contained multiple high-impact vulnerabilities, and
     monitored systems with very few high-impact vulnerabilities.

     We requested the Agency’s recent vulnerability scan results for the monitored systems
     and were provided with non-credentialed scans. We then requested that NASA IT
     security personnel perform credentialed scans of these same systems, which we observed.
     These credentialed scans consistently revealed a much larger number of high-impact
     vulnerabilities than had been identified by the non-credentialed scans. For example,
     although the credentialed scans were performed on only a small sample of system
     components, they identified a staggering 2,644 high-impact vulnerabilities compared
     with 59 high-impact vulnerabilities identified by the non-credentialed scans. These
     results illustrate that NASA’s current vulnerability monitoring practices capture only a
     small fraction of the known, high-impact vulnerabilities in NASA’s systems. Further,
     using only non-credentialed vulnerability scanning practices increases the risk of loss of
     confidentiality, integrity, and availability of NASA systems, data, and intellectual
     property.

     In sum, NASA’s move away from a “snapshot” approach for certifying the security of its
     IT systems to a continuous monitoring approach holds the promise of improving NASA’s
     IT security posture. However, while NASA has made some progress in implementing
     this new approach, the Agency needs to improve its policies and procedures in several
     key areas to ensure continuous monitoring will provide adequate protection for the
     Agency’s IT systems.

     Management Action

     To strengthen existing policies, procedures, and continuous monitoring controls, we
     recommended that the CIO expedite development of content and metrics for applying
     secure baseline configuration settings to applicable NASA IT components. In addition,
     we believe the CIO should institute credentialed vulnerability scanning Agency-wide as
     part of its continuous monitoring program.

     We also recommended that Associate Administrators for Mission Directorates and Center
     Chief Information Security Officers take an active role to ensure that baseline security
     configurations are applied to their respective systems; appropriate personnel establish


     6
         A credentialed scan will identify software installed on a component while a non-credentialed scan will
         not.



iv                                                                                        REPORT NO. IG-12-006
OVERVIEW



  accounts within ITSEC-EDW; appropriate system data are included in ITSEC-EDW and
  validated; and systems are routinely undergoing credentialed vulnerability scanning.

  In response to a draft of this report, NASA concurred with our recommendations and
  proposed corrective actions to address security configuration baselines, credentialed
  vulnerability scanning, and maintaining an accurate account of security data for all
  NASA systems components. NASA plans to complete these actions by January 31, 2013.
  We consider NASA’s planned actions to be responsive to our recommendations, and will
  close the recommendations upon verification that the actions are complete.




REPORT NO. IG-12-006                                                                      v
DECEMBER 5, 2011




                                                          CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 2

  RESULTS
      NASA Has Not Transitioned to an Effective Continuous Monitoring
        Program _________________________________________ 4

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls ____________________________ 17
      Prior Coverage ______________________________________ 18

  APPENDIX B
      Glossary ___________________________________________ 19

  APPENDIX C
      NASA OCIO Memorandum _____________________________ 22

  APPENDIX D
      Management Comments ______________________________ 26

  APPENDIX E
      Report Distribution ___________________________________ 31




REPORT NO. IG-12-006
DECEMBER 5, 2011




                                                                        INTRODUCTION


Background

  As technology has advanced, NASA has become dependent on computerized information
  systems to carry out daily operations and to process, maintain, and report essential
  information. NASA’s information technology (IT) networks and systems control
  spacecraft, collect and process scientific data, and enable NASA personnel to collaborate
  with colleagues around the world. Users of these systems number in the hundreds of
  thousands and include NASA personnel, contractors, academia, and the public. Although
  most NASA IT systems contain data appropriate for wide dissemination, some contain
  sensitive information that, if stolen or inappropriately released, could result in significant
  financial loss or adversely affect national security.

  The increasing number of cybersecurity threats facing NASA highlights the significance
  of ensuring that strong IT security practices are in place at the Agency. In calendar
  years 2009 and 2010, NASA reported 5,621 cybersecurity incidents that could have
  resulted in the installation of malicious software on its systems and unauthorized access
  to sensitive information. These threats continue to evolve in both scope and
  sophistication, presenting an ongoing challenge to NASA management. Consequently,
  strong IT security practices are essential to minimize the number and severity of
  vulnerabilities on NASA’s systems.

  The Federal Information Security Management Act of 2002 (FISMA) requires Federal
  agencies to annually report the security posture of their information systems. Prior to
  May 2010, NASA assessed the security posture of its systems using a “snapshot”
  certification and accreditation (C&A) process that assessed security on a periodic
  schedule and at a fixed point in time. Under this approach, NASA required system
  owners to reauthorize their systems on a 3-year cycle.

  In May 2010, NASA announced a fundamental shift away from this “snapshot” C&A
  approach to real-time, device-level continuous monitoring. According to the Agency,
  this shift would enable near real-time risk management and ongoing security
  authorizations that reflect the true intent of applicable National Institute of Standards and
  Technology (NIST) guidance. NASA’s new approach emphasizes the importance of
  continuously monitoring components connected to NASA’s systems and focuses on
  critical controls that protect against the most common IT security incidents NASA has
  experienced.

  The initial phases of any continuous monitoring process rely on three elements that are of
  primary importance to system monitoring: maintaining complete and accurate
  IT component inventories; implementing effective security configuration management;



REPORT NO. IG-12-006                                                                               1
                                                                                                INTRODUCTION



    and vulnerability management. As part of its continuous monitoring program, NASA has
    undertaken the following initiatives:

          •   Developed the IT Security – Enterprise Data Warehouse (ITSEC-EDW), an
              inventory of NASA IT components and security configurations. ITSEC-EDW
              also includes consolidated patch statistics, vulnerability scan results, hardware
              and software data, and correlation capabilities.

          •   Formed the Agency Vulnerability Assessment and Remediation (AVAR) team,
              which is responsible for the Agency’s vulnerability management project and for
              Foundstone Enterprise, the Agency’s automated network vulnerability scanning
              tool, as well as for communication between Foundstone Enterprise and
              ITSEC-EDW. 7

          •   Instituted the Agency Security Configuration Standards (ASCS) project that
              provides assessments, recommendations, processes, and procedures to assist
              NASA in meeting system security configuration requirements. NASA currently
              has three sources for its system configuration standards: United States
              Government Configuration Baseline (USGCB) settings, Federal Desktop Core
              Configuration (FDCC) settings, and Center for Internet Security (CIS) benchmark
              settings.

    While these initiatives are appropriate steps to achieving a successful real-time
    continuous monitoring program, we believe that NASA needs to do more to ensure that
    its continuous monitoring efforts are based on a solid foundation and have the maximum
    chance of success.


Objectives

    The objective of this audit was to evaluate NASA’s progress in moving from a periodic
    C&A assessment to continuously monitoring its IT security posture. This report focuses
    on three areas that we consider key to the successful implementation of the Agency’s
    overall continuous monitoring program: maintaining accurate IT component inventories;
    instituting strong security configuration management; and vulnerability management
    practices.

    To assess the Agency’s progress in these three areas, we examined the extent to which
    NASA’s ITSEC-EDW captures all relevant IT components; whether mandated
    configuration settings were being appropriately applied to components; and whether
    vulnerability monitoring practices were effective for identifying and mitigating known,
    high-impact vulnerabilities. We also reviewed internal controls related to our overall
    7
        Foundstone Enterprise is the commercial off-the-shelf enterprise software solution used when scanning
        NASA’s networks and systems for vulnerabilities. (McAfee is the manufacturer of Foundstone
        Enterprise and has recently changed the name of the product to Vulnerability Manager.)



2                                                                                       REPORT NO. IG-12-006
INTRODUCTION



  objective. We performed our work at four Centers. See Appendix A for details of the
  audit’s scope and methodology, our review of internal controls, and a list of prior audit
  coverage. See Appendix B for a glossary of terms used in this report.




REPORT NO. IG-12-006                                                                          3
                                                                                                     RESULTS




                     NASA HAS NOT TRANSITIONED TO AN EFFECTIVE
                              CONTINUOUS MONITORING PROGRAM

           NASA has not yet successfully transitioned from “snapshot” C&A processes to a
           fully implemented continuous monitoring program. In order for the Agency to reach
           this goal, it needs to (1) create and maintain a complete, up-to-date record of
           IT components connected to its networks; (2) define the security configuration
           baselines required for its system components and develop an effective means of
           assessing compliance with those baselines; and (3) establish best practices for
           vulnerability management on all Agency IT systems.


Agency Continuous Monitoring and Reporting System Data Are
  Incomplete

    We found that NASA lacks a complete inventory database of IT components currently in
    use. Without a complete and up-to-date inventory of IT components, the effectiveness of
    NASA’s continuous monitoring program will be significantly diminished.

    In September 2010, we recommended that NASA’s Chief Information Officer (CIO)
    require the Centers to implement a process to verify that their vulnerability monitoring
    includes 100 percent of applicable network devices. NASA agreed and stated it planned
    to implement a new system, ITSEC-EDW, that would include an Agency-wide database
    of the IT components connected to NASA’s networks. NASA’s CIO stated that the
    IT component information in the database would come from network vulnerability scans
    and NASA’s patch management and reporting system, among other sources.

    ITSEC-EDW retrieves data from multiple Agency and Center data sources to provide a
    continuously updated record of components connected to NASA’s networks. In NASA
    Information Technology Requirement (NITR) 2810-24, “NASA IT Device Vulnerability
    Management,” January 28, 2010, NASA mandated that Centers use ITSEC-EDW and
    required that C&A information on all NASA systems include “an asset inventory listing
    all IT components associated with the information system.” This guidance, which
    expired on May 16, 2011, was subsequently included as part of the IT Security Handbook
    (ITS-HBK) 2810.07-01, “Configuration Management,” May 6, 2011.

    The policy makes clear the IT security challenge the Agency faces in making the
    transition to continuous monitoring:

           There are more than 120,000 devices or nodes located at NASA Centers and
           Facilities, and connected to NASA networks. Each of these nodes can be a potential
           vector for unauthorized access, virus infection, or some other security incident. The
           purpose of this policy is to protect each device by defining standard security measures
           against viruses and other malware, ensuring patches are applied, setting requirements



4                                                                                     REPORT NO. IG-12-006
RESULTS



            for vulnerability scans, and establishing an inventory of all devices and their security
            configurations.

  As part of continuously monitoring IT security, NASA officials said they strive to
  monitor 100 percent of the Agency’s systems and connected components. The first step
  toward that goal is maintaining a comprehensive record of IT components so that Center
  Chief Information Security Officers (CISOs) have a real-time awareness of all
  components connected to their systems. 8 According to the project manager for
  ITSEC-EDW, the Agency has three ways to ensure that applicable system component
  information is added to and updated in the database. Two of those ways are automated
  through the use of software applications that transfer information to ITSEC-EDW. The
  third way is to input information manually when automation is not technically feasible
  due to operational constraints. While the Agency envisioned ITSEC-EDW as a
  comprehensive database to track and report NASA’s IT security posture, we found a
  significant portion of the components we sampled were not included in ITSEC-EDW and
  that important information concerning our sampled components was incomplete.

  To assess the accuracy of the ITSEC-EDW, we judgmentally selected a sample of
  289 connected components from 12 systems across four Centers. 9 We found that 175 of
  these components (61 percent) were not reflected in the database and that patch agent and
  vulnerability data for 93 others (32 percent) was incomplete. Moreover, only 21 of the
  289 components (7 percent) we sampled included both patch agent and vulnerability data.
  In summary, we found that ITSEC-EDW was not comprehensively or consistently
  capturing the IT component information, vulnerability information, or security
  configuration data needed to ensure the successful implementation of continuous
  monitoring at NASA. A breakdown of the ITSEC-EDW component queries we
  conducted is shown in Figure 1.




  8
      The title for NASA’s IT Security Managers changed to Center CISOs in May 2011.
  9
      We excluded 1 of the 13 systems originally in our sample because it was not connected to any other
      Agency network.



REPORT NO. IG-12-006                                                                                       5
                                                                                                RESULTS



    Figure 1. Results of ITSEC-EDW Queries for 289 System Components to Identify Patch
    Agent and Vulnerability Data




                                                           No information found for 61% of
                                                           the sample
                             7%
                    14%
                                                           Vulnerability Data found for only
                                                           18% of the sample
              18%                               61%

                                                           Patch Agent found for only 14% of
                                                           the sample


                                                           Patch Agent and Vulnerability Data
                                                           found for 7% of the sample




    NITR 2810-24 requires system owners to record all IT components in ITSEC-EDW.
    However, the overwhelming majority of the components we tested were not included in
    the database. Until the Agency ensures that it has a more comprehensive inventory of the
    components connected to its systems, the effectiveness of its continuous monitoring
    program will be significantly diminished.


Security Configuration Baselines Are Not Available and
  Continuously Monitored on Many IT Components

    Security configuration baselines are essential for protecting systems and data. Of critical
    importance is establishing security baseline settings for system components and
    maintaining those security settings throughout the components’ life cycles. Security
    configuration baselines include specific settings needed to ensure a system is protected
    from malicious attacks. These baselines should be established for both hardware and
    software connected to a NASA system or network, and any changes to the baseline
    should be monitored and addressed.

    In September 2004, NASA adopted the CIS benchmarks for applying security
    configuration baselines to many of its operating systems, including Windows, Unix, and
    various types of Linux. Accordingly, CIS benchmarks are applicable to the desktops,
    laptops, and servers used by thousands of NASA’s employees and contractors.


6                                                                            REPORT NO. IG-12-006
RESULTS



  In February 2008, the Office of Management and Budget (OMB) mandated that Federal
  agencies apply NIST’s FDCC settings to Windows XP and Vista desktop operating
  systems. These settings provide Federal agencies with commonly accepted baseline
  security settings for these operating systems. NASA automatically tracks compliance
  with FDCC settings on its Windows XP and Vista components and reports compliance
  status to OMB. However, as previously noted, NASA uses CIS benchmarks for applying
  security configuration baselines to Unix, Linux, and Windows server operating systems.
  We found that implementation of CIS benchmarks varies widely from system to system.
  In addition, NASA has no processes in place to measure and monitor CIS benchmark
  compliance.

  To examine NASA’s compliance with CIS benchmarks, we used the same sample of
  12 systems discussed above. We found that 2 systems had obtained waivers from
  benchmark requirements because both had operational constraints that prevented
  CIS benchmark application and 1 system was composed of FDCC-compliant
  components. We selected a sample of components from the remaining 9 systems and
  used the CIS Configuration Assessment Tool (CAT) to assess their compliance with the
  benchmarks. We found compliance scores ranging between 36 and 93 percent, indicating
  configuration settings were not fully compliant with the benchmark standards. Due to the
  wide variation in these scores, we evaluated the CAT assessment tool itself and found the
  following limitations:

      •   CIS benchmark metrics were not developed specifically for NASA and many
          NASA components have more stringent settings or operational constraints.
          Consequently, NASA deviates from the benchmark in many cases, and some of
          the settings that CAT reported as failures are actually more secure than the
          benchmark. In those instances, modifying the settings to conform to CIS
          benchmarks would actually have a negative effect on the security of NASA’s
          operating environment.

      •   CAT can only be run against one component at a time. Because NASA has more
          than 120,000 components that need to be monitored for baseline compliance,
          CAT may not be a viable tool for continuously monitoring NASA’s systems.

  Given these limitations and the need to continuously monitor components throughout
  their life cycles, it is important that NASA clearly define what baseline configuration
  settings are appropriate to meet the Agency IT security goals. The wide variance in
  compliance scores occurred because NASA had not established baseline configuration
  settings, metrics, and a monitoring capability for all of its operating system environments.
  Therefore, NASA needs to determine what benchmark settings are appropriate for
  securing the Agency’s IT assets.

  We also found that even though the CIS benchmark requirement applies to a significant
  number of components that we reviewed, ITSEC-EDW reports information only on
  FDCC rather than CIS compliance. Consequently, this can lead to a misconception of
  NASA’s IT security posture when the Agency reports to OMB through ITSEC-EDW.


REPORT NO. IG-12-006                                                                             7
                                                                                                        RESULTS



    For example, of the 1,578 IT components connected to NASA’s systems that we
    reviewed, only 14 percent (227 components) were required to comply with FDCC and
    would be included in NASA’s IT security reporting to OMB. Therefore, 86 percent of
    the components in our review would not be included in the Agency’s reporting
    (1,039 components with a Unix/Linux operating system, 196 components with a
    Windows server operating system, and 116 components identified as other shown in
    Figure 2). 10

    Figure 2. Operating Systems on Components Reviewed

                                    1200
                                                                               Unix/Linux - 1039
                                                                               components, 100% CIS
                                    1000                                       configuration required
          Number of IT Components




                                    800                                        Windows Server- 196
                                                                               components, 100% CIS
                                                                               configuration required
                                    600
                                                                               Windows Workstation -227
                                    400                                        components, 100% FDCC
                                                                               configuration required

                                    200
                                                                               Other - 116 components

                                      0



    Improperly configured operating systems and software applications are a frequent avenue
    for unauthorized access to NASA’s systems. Without the capability to continuously
    monitor components for compliance with defined baselines, NASA does not have
    adequate assurance that its systems are protected against malicious attacks. Conversely,
    with an effective monitoring and measurement capability, system owners, auditors, and
    NASA management would have the means to determine whether systems are compliant
    and are meeting the IT security goals of the Agency.




    10
         For this portion of our review, we relied on hardware and software documentation provided by the
         system personnel. The 116 components identified as “Other” in Figure 2 had no known configuration
         benchmark requirement.



8                                                                                     REPORT NO. IG-12-006
RESULTS



Vulnerability Management Is Not Occurring Consistently and Is
  Not Effective in Identifying All Known, High-Impact
  Vulnerabilities

  NASA Centers use the McAfee Foundstone Enterprise application to scan their networks
  for known vulnerabilities. NASA’s AVAR project coordinates vulnerability scanning
  processes, tools, and licensing for all NASA Centers. Mission Directorate and Center
  program and project managers are responsible for performing vulnerability scans on local
  NASA systems to identify high-impact vulnerabilities and for managing the local
  vulnerability scanners. NASA policy states that scans are to be conducted monthly for all
  known, high-impact vulnerabilities and that any vulnerabilities identified are to be
  addressed in a plan of action and milestones. As categorized by the United States
  Computer Emergency Readiness Team (US-CERT), high-impact vulnerabilities are
  vulnerabilities such as unpatched software that could pose the most risk to the system and
  could be the most damaging if exploited.

  Vulnerability scans can be performed as credentialed or non-credentialed. A credentialed
  scan uses administrator rights on the target host, while a non-credentialed scan does not.
  Administrator rights are permissions granted to users allowing them to view installed
  software and to make changes to computer system configurations. Both scanning
  techniques will produce a report on vulnerabilities with impact ratings of High, Medium,
  Low, and Informational, but a credentialed scan performs a much more thorough check
  of the system and produces more accurate results. For example, a credentialed scan will
  identify vulnerable software installed on a component, while a non-credentialed scan will
  not.

  Of the 13 systems we selected for review, 7 were located at one Center. Our review of
  these systems revealed that 2 of the systems had not been undergoing continuous
  monitoring for high-impact vulnerabilities. Moreover, when we performed credentialed
  scans on the Center’s systems rather than relying on the non-credentialed scans Center
  personnel had been performing, we identified a large number of high-impact
  vulnerabilities. This finding questions the efficacy of NASA’s processes for identifying
  systems that should be subject to vulnerability management and the effectiveness of its
  vulnerability scanning.

  While some systems we reviewed showed a stronger security posture than others, we did
  not find consistent practices in place across Centers. For example, one Center used
  credentialed scanning as part of the vulnerability monitoring process for one of its
  systems, and we found very few high-impact vulnerabilities for that system. Local
  personnel stated that transitioning from non-credentialed to credentialed scanning
  achieved notable results over a short period of time and that reportable security incidents
  had been significantly reduced.

  We directed NASA personnel to perform credentialed scans on a small sample of system
  components and observed these scans. We compared the results of those scans with past,


REPORT NO. IG-12-006                                                                            9
                                                                                                                RESULTS



     non-credentialed scans performed by the Agency. As shown in Figure 3, although the
     credentialed scans were performed on only a small sample of system components, they
     identified 2,644 high-impact vulnerabilities compared with the 59 high-impact
     vulnerabilities identified by the non-credentialed scans.

     Figure 3. Vulnerabilities Found by Credentialed Versus Non-Credentialed
     Scans


                                     3,000                                2,871
                                                   2,644
         Number of Vulnerabilities




                                     2,700
                                     2,400
                                     2,100
                                     1,800
                                     1,500                                                Non-credentialed
                                     1,200
                                                                                          Credentialed
                                       900
                                       600
                                       300    59                    76
                                         0
                                             High Impact         Medium Impact

                           Note: Results shown are from credentialed scans performed on small samples
                           of system components and non-credentialed scans conducted on entire systems.

     While we did not assess whether the identified vulnerabilities were exploitable, these
     results indicate that NASA’s current vulnerability monitoring practices capture only a
     small fraction of the known, potentially high-impact vulnerabilities that reside in the
     Agency’s systems.


     NASA officials said using credential versus non-credentialed scans in a widely
     distributed environment is difficult due to the large numbers of credentials that must be
     managed. However, these unmitigated vulnerabilities increase the risk for loss of
     NASA’s systems, data, and intellectual property. By decreasing the number of
     high-impact vulnerabilities and misconfigured components, NASA can reduce the
     avenues for cyber attacks, the number of actual attacks, and the resources needed to
     respond to those attacks. Therefore, in order for NASA to ensure that its continuous
     monitoring program is effective, the Agency needs to ensure that credentialed scanning is
     consistently used on all systems.


Conclusion

     We found that NASA faces significant challenges in transitioning to a continuous
     monitoring process for its IT systems and related components. Until NASA (1) develops


10                                                                                                  REPORT NO. IG-12-006
RESULTS



  and maintains a complete record of IT components; (2) ensures that security
  configuration baselines are available, applied, and monitored for all applicable
  components; and (3) develops consistent credentialed vulnerability scanning processes
  for use Agency-wide, NASA cannot effectively transition from a system of isolated
  reviews to an enterprise-wide continuous monitoring program.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To strengthen existing policies, procedures, and continuous monitoring controls, we made
the following recommendations.

Recommendation 1. The Chief Information Officer should

      a. expedite development of content, metrics, and a monitoring capability for
         applying secure baseline configuration settings to applicable NASA IT
         components using NASA’s most common attack vectors as a guide for
         prioritization, beginning with Windows server operating systems and their
         respective functionality (e.g., web server and file server).

      b. institute credentialed vulnerability scanning Agency-wide as part of its continuous
         monitoring program. Specifically,

             (1) develop and disseminate to all affected personnel detailed operating
                 procedures for credentialed vulnerability scanning;

             (2) develop schedules for performing credentialed vulnerability scans; and

             (3) require credentialed scans Agency-wide as part of its continuous
                 monitoring program.

      c. verify that the security baselines are applied and that credentialed scans are being
         performed as directed.

  Management’s Response. NASA concurred with our recommendation, noting that
  applying and measuring security configuration baselines can improve the Agency’s
  overall IT security posture. NASA tasked its Agency Security Configuration (ASCS)
  program to develop and manage security configuration baselines and measurement
  content for all applicable NASA IT components. In addition, NASA officials said they
  are developing a Windows Server 2008 security configuration baseline and plan to begin
  measuring compliance with this baseline on March 31, 2012. NASA also agrees that
  credentialed vulnerability scanning allows for improved awareness of system
  vulnerabilities. Accordingly, NASA said it plans to update its guidance to include a
  requirement for performing credentialed vulnerability scanning that will include detailed
  operating procedures. Finally, NASA plans to propose establishment of a compliance


REPORT NO. IG-12-006                                                                            11
                                                                                        RESULTS



     verification capability within the NASA OCIO. NASA expects to complete all of these
     corrective actions by November 30, 2012.

     Evaluation of Management’s Response. NASA’s planned corrective actions are
     responsive to our recommendations. We will close the recommendations upon verifying
     that NASA has completed these actions.

Recommendation 2. Associate Administrators for Mission Directorates and Center Chief
Information Security Officers should ensure that

        a. OCIO-developed baseline security configurations are applied to their systems;
           until these baselines settings are made available, ensure the appropriate CIS
           benchmarks are applied to their system components and deviations from the
           benchmarks are documented.

        b. all system owners establish accounts within ITSEC-EDW and follow procedures
           set forth in NASA policies as they relate to ITSEC-EDW, vulnerability
           monitoring, and configuration security baselines.

        c. appropriate system data are included in ITSEC-EDW and validated on a
           semiannual schedule.

        d. systems undergo credentialed vulnerability scanning and data are integrated into
           ITSEC-EDW.

     Management’s Response. NASA concurred with our recommendation, stating that it is
     taking steps to ensure appropriate security baselines and benchmarks are applied to
     applicable Mission and Center IT components and that any deviations from the standards
     are documented. Additionally, NASA is deploying an enterprise-wide patch management
     and reporting tool for use by Mission Directorates and Centers. In cases where this tool
     will not be used, systems personnel will maintain documented justification in the form of
     an approved IT security waiver. In addition, Center CISOs and Mission Directorate
     Associate Administrators agree that by March 31, 2012, responsible parties will have
     accounts in and familiarize themselves with the functionality of ITSEC-EDW, and by
     June 30, 2012, will include the appropriate system information in ITSEC-EDW and
     coordinate with OCIO on developing a process for validating that data semiannually.
     NASA also stated that Centers and Mission Directorates have already begun utilizing
     credentialed scans and that OCIO plans to implement credentialed scanning on all
     systems that are capable of supporting unique scanning techniques by March 31, 2012.
     Finally, NASA plans to have vulnerability data from all Center and Mission Directorate
     systems that are scanned using McAfee Vulnerability Manager integrated into ITSEC-
     EDW by January 31, 2013. Vulnerability data from NASA systems being scanned with
     other tools will be integrated into ITSEC-EDW as soon as possible.




12                                                                        REPORT NO. IG-12-006
RESULTS



  Evaluation of Management’s Response. NASA’s planned corrective actions are
  responsive to our recommendations. We will close the recommendations upon verifying
  that NASA has completed these actions.




REPORT NO. IG-12-006                                                                    13
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from January through October 2011 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We assessed NASA’s progress in shifting toward a continuous monitoring approach to
  IT security by focusing on processes in place at four NASA Centers for three key
  elements: record of IT components, configuration management, and vulnerability
  monitoring. NIST Special Publication (SP) 800-53, Revision 3, “Recommended Security
  Controls for Federal Information Systems and Organizations,” August 2009, defines
  requirements for control monitoring. In addition to NIST SP 800-53 and the OCIO’s
  May 18, 2010, memorandum (Appendix C), we reviewed the following Federal and
  Agency criteria, policies, and procedures:

      •   NIST SP 800-37, Revision 1, “Guide for Applying the Risk Management
          Framework to Federal Information Systems: A Security Life Cycle Approach,”
          February 2010

      •   NIST SP 800-40, Version 2.0, “Creating a Patch and Vulnerability Management
          Program,” November 2005

      •   NIST SP 800-128 (Initial Public Draft), “Guide for Security Configuration
          Management of Information Systems,” March 2010

      •   NIST SP 800-137 (Initial Public Draft), “Information Security Continuous
          Monitoring for Federal Information Systems and Organizations,” December 2010

      •   Federal Information Processing Standards (FIPS) Publication 199, “Standards for
          Security Categorization of Federal Information and Information Systems,”
          February 2004

      •   NASA Procedural Requirements (NPR) 2810.1A, “Security of Information
          Technology (Revalidated with Change 1, May 19, 2011)”

      •   NITR 2810-12, “Continuous Monitoring,” May 18, 2008 (expired May 18, 2011)




REPORT NO. IG-12-006                                                                          15
                                                                                     APPENDIX A



        •   NITR 2810-24, “NASA IT Device Vulnerability Management,” January 28, 2010
            (expired May 16, 2011)

        •   IT Security Handbook (ITS-HBK) 2810.02-04, “Security Assessment and
            Authorization: Continuous Monitoring – Annual Security Control Assessments,”
            November 10, 2010

        •   ITS-HBK 2810.07-01, “Configuration Management,” May 2011

        •   NASA OCIO Memorandum, “Center for Internet Security (CIS) Consensus
            Benchmarks,” September 2, 2004

        •   NASA OCIO Memorandum, “Implementation of Center for Internet
            Security (CIS) Benchmarks,” June 29, 2005

        •   NASA OCIO Memorandum, “FY [Fiscal Year] 2007 and FY 2008 Patch
            Management and Security Configuration Metrics,” April 4, 2007

        •   NASA OCIO Memorandum, “Agency Security Configuration Standards: Federal
            Desktop Core Configurations,” November 15, 2007

        •   NASA OCIO Memorandum, “Supplemental FY08 Guidance for Agency Security
            Configurations Standards and FDCC Reporting,” February 20, 2008

        •   NASA OCIO Memorandum, “FY 2009 Scanning and Vulnerability Elimination or
            Mitigation,” February 6, 2009

        •   NASA OCIO Memorandum, “Fiscal Year 2011 (FY11) Continuous Monitoring
            and Reauthorization Activities,” January 11, 2011

        •   Johnson Space Center Chief Information Officer Memorandum, “[Johnson Space
            Center’s] FY11 Strategy for Vulnerability Scanning and Risk Mitigation,”
            January 21, 2011

     We reviewed NASA policies and procedures to determine the roles, responsibilities, and
     procedures for including system components in ITSEC-EDW, applying configuration
     settings to system components, and vulnerability monitoring of NASA systems.

     We interviewed system owners, system administrators, organization computer security
     Officials, and the Center IT Security Managers (now called CISOs) at the Centers we
     visited, as well as OCIO personnel, including AVAR project personnel, the Emerging
     Technology and Desktop Standards project manager, and the ASCS technical lead. We
     interviewed key personnel at the project and system level to determine their awareness of
     NASA guidance and the procedures that they follow for ensuring their components are
     included in ITSEC-EDW. To evaluate the comprehensiveness and accuracy of
     ITSEC-EDW, we compared the results of queries to that database with the results of our


16                                                                        REPORT NO. IG-12-006
APPENDIX A



  review. We also discussed ITSEC-EDW functionality with the Agency Security Update
  Service project manager.

  We evaluated processes and tools used at the Centers to monitor and report
  IT components, to maintain system and component configurations, and to detect and
  remediate vulnerabilities.

  We judgmentally selected 13 systems to review from an Agency-wide, non-national
  security system inventory list maintained by the OCIO. As of November 2010, the
  inventory list identified 550 internal systems and 43 external (contractor) systems. We
  did not verify the accuracy of this list. We limited our selection to high- and moderate-
  impact systems at the four Centers visited. Of the 13 systems originally selected, we
  excluded 1 from our review because it was not connected to any other Agency network.

  For each system that we reviewed, we assessed whether component samples reflected
  appropriate baseline security configurations, reviewed configuration documentation, and
  observed credentialed scans for vulnerabilities. We also judgmentally selected a sample
  of components connected to each system to query for information in ITSEC-EDW. We
  compared the results of the queries to data collected in configuration assessments and
  vulnerability scans.

  Computer-Processed Data. We relied on data produced by a commercial software
  program to perform configuration tests on NASA’s computer servers. Specifically, we
  used the CIS CAT to assess computer server operating system compliance with the
  applicable CIS benchmarks. We did not validate the data produced by the CIS CAT
  because this tool is widely accepted as a reliable source for providing information on
  operating system configuration settings. However, due to the wide variance in
  compliance scores, we evaluated the tool and found limitations, as discussed in the report.

  We directed and observed the use of McAfee Foundstone Enterprise, a commercial
  vulnerability scanner, to test system components for technical vulnerabilities. We did not
  validate the data produced by Foundstone Enterprise because it is widely accepted as a
  reliable source for providing information related to the presence of technical
  vulnerabilities in information systems.


Review of Internal Controls

  We identified and evaluated the effectiveness of internal controls in place to manage
  configurations and continuously monitor systems and components. The control
  weaknesses we identified are discussed in the Results section of this report. Our
  recommendations, if implemented, will help to correct the identified control weaknesses.




REPORT NO. IG-12-006                                                                            17
                                                                                  APPENDIX A



Prior Coverage

     During the last 5 years, the NASA Office of Inspector General (OIG) and the
     Government Accountability Office (GAO) have issued three reports of particular
     relevance to the subject of this report. Unrestricted reports can be accessed over the
     Internet at http://oig.nasa.gov/audits/reports/FY11 (NASA OIG) and http://www.gao.gov
     (GAO).

     NASA Office of Inspector General

     “Federal Information Security Management Act: Fiscal Year 2010 Report from the
     Office of Inspector General” (IG-11-005, November 10, 2010)

     “Audit of NASA’s Efforts to Continuously Monitor Critical Information Technology
     Security Controls” (IG-10-019, September 14, 2010)

     Government Accountability Office

     “Information Security: NASA Needs to Remedy Vulnerabilities in Key Networks”
     (GAO-10-4, October 15, 2009)




18                                                                      REPORT NO. IG-12-006
APPENDIX B




                                                                           GLOSSARY

  Center Chief Information Security Officer (CISO): CISOs serve as advisors to the
  Senior Agency Information Security Officer, Center CIO, and senior Center officials on
  matters pertaining to information security. This role was previously referred to as the
  Information Technology Security Manager.

  Center for Internet Security (CIS): The CIS is a not-for-profit organization that serves
  as a central resource to improve cybersecurity posture. The CIS Security Benchmarks
  division improves organizations’ security posture by helping reduce the risk of
  inadequate technical security controls.

  Certification and Accreditation (C&A): Certification is the comprehensive evaluation
  of security features of a system, made in support of the accreditation process, that
  establishes the extent to which a particular design and implementation meet a specified
  set of security requirements. Accreditation is the process by which certification is
  reviewed and a formal declaration made that a system is approved to operate.

  Configuration Baseline Settings: Security baseline configurations should conform to
  applicable Federal requirements (e.g., FDCC and USGCB). USGCB security
  configuration checklists (for Windows XP, Windows Vista, and Internet Explorer 7)
  support the FDCC policy, and the USGCB checklists address a wide variety of security
  and non-security settings that are largely based on the recommendations of product
  vendors but customized to meet Federal requirements. The USGCB checklists are
  referred to as baselines because they define minimum sets of configurations that must be
  implemented.

  Continuous Monitoring: Information security continuous monitoring is defined as
  maintaining ongoing awareness of information security, vulnerabilities, and threats to
  support organizational risk management decisions. The objective is to conduct ongoing
  monitoring of the security of an organization’s networks, information, and systems, and
  respond by accepting, avoiding/rejecting, transferring/sharing, or mitigating risk as
  situations change.

  Credentialed Vulnerability Scans: A scanning engine uses credentials to login to the
  system to enumerate services, applications, and patches. The information obtained by
  using credentials during a vulnerability scan allows administrators to perform a more
  comprehensive assessment of the security posture of their system, verify the performance
  of their patching mechanisms, check service configurations, and discover erroneously or
  maliciously installed services.




REPORT NO. IG-12-006                                                                         19
                                                                                           APPENDIX B



     Federal Desktop Core Configuration (FDCC): FDCC is a security configuration
     mandated by OMB. FDCC currently exists for Microsoft Windows XP and Vista
     operating system software.

     Foundstone Enterprise: See McAfee Vulnerability Manager.

     Incident: Any adverse event or situation associated with a system that poses a threat to
     the system’s integrity, availability, or confidentiality.

     Information Technology (IT): The term “information technology” means any
     equipment or interconnected system or subsystem of equipment that is used in the
     automatic acquisition, storage, manipulation, management, movement, control, display,
     switching, interchange, transmission or reception of data or information.

     Information Technology Security – Enterprise Data Warehouse (ITSEC-EDW):
     ITSEC-EDW is intended to serve as an automated data warehouse providing an inventory
     of NASA IT components and related security information. It will include consolidated
     patch statistics, vulnerability scan results and hardware and software identification data.

     Linux: Unix-like operating system that was designed to provide personal computer users
     a free or very low-cost operating system comparable to traditional and usually more
     expensive Unix systems. Linux has a reputation as a very efficient and fast-performing
     system.

     Malware: Also known as malicious code and malicious software, refers to a program
     that is inserted into a system, usually covertly, with the intent of compromising the
     confidentiality, integrity, or availability of the victim’s data, applications, or operating
     system or otherwise annoying or disrupting the victim.

     McAfee Vulnerability Manager: Formerly known as Foundstone Enterprise, the
     McAfee Vulnerability Manager finds and prioritizes vulnerabilities and policy violations
     on a network.

     Patch: An additional piece of code developed to address a problem in an existing piece
     of software.

     Patch Agent: A commercially available automated inventory management tool that
     monitors changes in the computer’s configuration and reports to a central database,
     thereby providing the patch and vulnerability group and management a picture of a
     system’s IT resources.

     Patch Management: The process of acquiring, testing, and distributing patches to the
     appropriate administrators and users throughout the organization.

     Risk Management: The process of managing risks to agency operations (including
     mission, functions, image, or reputation), agency assets, or individuals resulting from the



20                                                                             REPORT NO. IG-12-006
APPENDIX B



  operation of an information system. It includes risk assessment; cost-benefit analysis; the
  selection, implementation, and assessment of security controls; and the formal approval
  to operate the system. The process considers effectiveness, efficiency, and constraints
  due to laws, directives, policies, and regulations.

  Security Authorization: The official management decision given by a senior
  organizational official to authorize operation of an information system and to explicitly
  accept the risk to organizational operations and assets, individuals, other organizations,
  and the Nation based on the implementation of an agreed-upon set of security controls.

  Security Controls: The management, operational, and technical controls (e.g.,
  safeguards or countermeasures) prescribed for an information system to protect the
  confidentiality, integrity, and availability of the system and its information.

  Security Posture: The overall state of an information system’s confidentiality, integrity,
  and availability in the face of an ever-changing risk landscape.

  Unix: Unix is a multi-user environment that has been implemented on a variety of
  platforms. With the exception of Microsoft Windows, all current major operating
  systems have some kind of Unix at their cores. Unix is not so much a single operating
  system as it is a standard upon which organizations and companies base their own
  systems.

  Virus: A program designed with malicious intent that has the ability to spread to
  multiple computers or programs. Most viruses have a trigger mechanism that defines the
  conditions under which it will spread and deliver a malicious payload of some type.

  Vulnerability: A flaw or weakness in system security procedures, design,
  implementation, or internal controls that could be exercised (accidentally triggered or
  intentionally exploited) and result in a security breach or a violation of the system’s
  security policy.

  Vulnerability Management: The process of managing the weakness in an information
  system, system security procedures, internal controls, or implementation that could be
  exploited or triggered by a threat source.

  Vulnerability Scanning: An assessment technique used to identify hosts/host attributes
  and associated vulnerabilities.




REPORT NO. IG-12-006                                                                            21
                        APPENDIX C




     NASA OCIO MEMORANDUM




22             REPORT NO. IG-12-006
APPENDIX C




REPORT NO. IG-12-006   23
              APPENDIX C




24   REPORT NO. IG-12-006
APPENDIX C




REPORT NO. IG-12-006   25
                       APPENDIX D




     MANAGEMENT COMMENTS




26            REPORT NO. IG-12-006
APPENDIX D




REPORT NO. IG-12-006   27
              APPENDIX D




28   REPORT NO. IG-12-006
APPENDIX D




REPORT NO. IG-12-006   29
              APPENDIX D




30   REPORT NO. IG-12-006
APPENDIX E




                                                    REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief Information Officer
  Associate Administrator for Aeronautics Research
  Associate Administrator for Exploration Systems
  Associate Administrator for Science
  Associate Administrator for Space Operations
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  Director, Ames Research Center
  Director, Dryden Flight Research Center
  Director, Glenn Research Center
  Director, Goddard
     Manager, White Sands Test Facility
  Director, Jet Propulsion Laboratory
  Director, Johnson Space Center
  Director, Kennedy Space Center
  Director, Langley Research Center
  Director, Marshall Space Flight Center
  Director, Stennis Space Center
  Executive Director, NASA Shared Services Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management




REPORT NO. IG-12-006                                                           31
                                                                              APPENDIX E



Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




32                                                                  REPORT NO. IG-12-006
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Vincent Small, Project Manager
   Chris Reeves, Audit Lead
   Bessie Cox, Auditor
   Bret Skalsky, Auditor




REPORT NO. IG-12-006                                        33
                                                                                    DECEMBER 5, 2011
                                                                        REPORT No. IG-12-006




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
